XI.
Appendix A

Appendix

Opinion of the U.S Court of Appeals for the DC Circuit
No. 19-1266
Meghan Belaski and Scott Nutt v. Securities and
Exchange Commission
(March 5, 2021)
Judges Tatel, Millett, and Rao

Appendix B

Opinion of the U.S Court of Appeals for the DC Circuit
No. 19-1266
Meghan Belaski and Scott Nutt v. Securities and
Exchange Commission
(April 26, 2021)
Judges Srinivasan, Chief Judge, and Henderson, Rogers,
Tatel, Millett, Pillard, Wilkins, Katsas, Rao and Walker,
Circuit Judges

Appendix C

Opinion of the U.S Court of Appeals for the DC Circuit
No. 19-1266
Meghan Belaski and Scott Nutt u. Securities and
Exchange Commission
(May 4, 2021)

Appendix D

Securities and Exchange Commission Document #1894233
Filed (April 13, 2021) and U.S. Court of Appeals for the
DC Circuit pro-se email to Meghan Belaski
(April 21, 2021)

18

ffinxitb

Clourt ai JVpfteals

For The District of Columbia Circuit

September Term, 2020

No. 19-1266

SEC-Rel34-87662
SEC-Rel34-87663
Filed On: March 5, 2021
Meghan Belaski and Scott Nutt,
Appellants
v.
Securities and Exchange Commission,
Appellee
ON APPEAL FROM THE SECURITIES AND EXCHANGE COMMISSION
BEFORE:

Tatel, Millett, and Rao, Circuit Judges
JUDGMENT

This appeal was considered on the record from the Securities and Exchange
Commission (“SEC”) and on the briefs filed by the parties. See Fed. R. App. P.
34(a)(2); D.C. Cir. Rule 34(j). Upon consideration of the foregoing; the motions for
judicial notice; the motions to supplement the record, the opposition to one of those
motions, and the reply; the motion to correct the record; and the motion styled as a
“motion to request an amendment to this case,” it is
ORDERED that appellants’ May 22, 2020 motion to supplement the record be
granted in part and denied in part. The motion is granted with respect to what
appellants designate as documents C-1 and C-2. The motion is otherwise denied
because the proffered material is not relevant to the disposition of this appeal. It is
FURTHER ORDERED that appellants’ remaining motions to supplement the
record and motions for judicial notice be denied because the proffered material is not
relevant to the disposition of this appeal. It is
FURTHER ORDERED that appellants’ motion to correct the record be denied. It
is
FURTHER ORDERED AND ADJUDGED that the December 5, 2019 orders of
the SEC denying appellants’ applications for whistleblower awards be affirmed.
Appellants argue that they are entitled to a related-action award based on information
they provided to the SEC. However, the SEC correctly determined that, because

ptmiefr States (ttnixrt nf ^Appeals
For The District of Columbia Circuit

September Term, 2020

No. 19-1266

appellants were not entitled to a covered-action award, they were not even eligible for a
related-action award. See 15 U.S.C. § 78u-6(a)(5); 17 C.F.R. § 240.21 F-11(a); see
also Claim for Award in Connection with Redacted Notice of Covered Action Redacted,
Exchange Act Release No. 84,506, 2018 WL 5619386, at *3 n.5 (Oct. 30, 2018).
Appellants additionally argue that certain irregularities in the underlying
whistleblower proceeding demonstrate that the proceeding was legally deficient. But
because appellants were not eligible for a related-action award, any such errors could
not have affected the outcome of the proceeding and were therefore harmless. See
PDK Labs. Inc, v. U.S. PEA. 362 F.3d 786, 799 (D.C. Cir. 20041; see also Nafl Ass’n of
Home Builders v. Defenders of Wildlife. 551 U.S. 644,659-60 (2007). It is
FURTHER ORDERED that appellants’ motion to request an amendment to this
case be dismissed as moot.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
Is directed to withhold issuance of the mandate herein until seven days after the
resolution of any timely petition for rehearing or petition for rehearing en banc. See
Fed. R. App. P. 41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

Is/
Daniel J. Reidy
Deputy Clerk

pbriieb JSiates (ttouri nf JVppeals
For The District of Columbia Circuit

September Term, 2020

No. 19-1266

SEC-Rel34-87662
SEC-Rel34-87663
Filed On: April 26, 2021
Meghan Belaski and Scott Nutt,
Appellants

v.
Securities and Exchange Commission,
Appellee

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Millett,
Pilland, Wilkins, Katsas, Rao, and Walker, Circuit Judges
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote; the motion for judicial notice; and the
motion to stay en banc rehearing request and the opposition thereto, it is
ORDERED that the motion for judicial notice be denied because the proffered
material is not relevant to the disposition of this appeal. It is
FURTHER ORDERED that the motion to stay en banc rehearing request be
denied. It is
FURTHER ORDERED that the petition for rehearing en banc be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Isl
Daniel J. Reidy
Deputy Clerk

ffinxtzb States (Hcrurt of Appeals
For The District of Columbia Circuit

September Term, 2020

No. 19-1266

SEC-Rel34-87662
SEC-Rel34-87663
Filed On: May 4,2021 [1897282]

Meghan Belaski and Scott Nutt,
Appellants
v.
Securities and Exchange Commission,
Appellee
MANDATE
In accordance with the judgment of March 5, 2021, and pursuant to Federal Rule
of Appellate Procedure 41, this constitutes the formal mandate of this court.
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Link to the judgment filed March 5. 2021

/s/
Daniel J. Reidy
Deputy Clerk

USCA Case #19-1266

Document #1894233

Filed: 04/13/2021

Page 3 of 4

The Commission respectfully opposes appellants’ request for a stay of the
case pending their filing of a petition for a writ of certiorari. See Doc. 1893935
(Apr. 7,2021). Appellants’ en banc petition is pending and the Court has not
called for a response. Appellants state (at 1) that a stay is justified because
“Meghan Belaski has been using this very court to communicate with the FBI et
al., through the pro-se email address for this particular court,” but that statement
has no bearing on whether a stay is warranted. Moreover, if the Court denies
appellants’ en banc petition, the filing of a petition does not automatically stay the
mandate pending a petition for certiorari. See Fed. R App. P. 41. Nor can
appellants establish that any certiorari petition “would present a substantial
question mid... there is good cause for a stay.” Fed. R. App. P. 41(d)(1).
Appellants’ motion should be denied.
Respectfully submitted,
MICHAEL A. CONLEY
Acting General Counsel
STEPHEN G. YODER
Senior Litigation Counsel
Id Martin Totaro
MARTIN TOTARO
Senior Counsel
Securities & Exchange Commission
100 F Street, N.E.
Washington, D.C. 20549-9040
(202)551-7962
totarom@sec.gov
April 2021

Gmail - Use of ProSeFilings Email Address

5/3/2021

1 Gmail

MeghanChristine Ashe <meghanchristineashe@gmail.com>

Use of ProSeFilings Email Address
1 message
Wed, Apr 21, 2021 at 11:47 AM
CADCdb_ProSeFillngs <ProSeFilings@cadc.uscourts.gov>
To: "meghancashe@gmail.com" <meghancashe@gmail.com>, "meghanchrtstineashe@gmail.com"
<meghanchrtstineashe@gmail.com>

Ms. Belaski-Ashe,
This email address (CADCdb_ProSe Filings) was created during the pandemic
solely for the purpose of allowing pro se filers to submit documents via email that are
to be filed in a case in this court. You have repeatedly used this address for emails
that are unrelated to your appellate court case. As a result, you will no longer be
permitted to file any submissions through the pro se email box. In the future, if you
wish to submit a document in your case No. 19-1266, you must do so by mailing
paper copies to the court, U.S. Court of Appeals for the D.C. Circuit, 333 Constitution
Avenue, N.W., Washington, DC 20001. The court will no longer review or docket
any emailed submissions.

https://mail.googlex»m/maiI/u/0?ik=dd4d6{b28b&view=pt&seareh=all&permthid=thread-f%3A1697673160633769094&simpl=msg-f%3A1697673160633769094

1/1

